TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Treasury Inspector General for Tax
             Administration – Federal Information Security
               Management Act (Intelligence - National
                    Security Systems) Report for
                           Fiscal Year 2007



                                   July 30, 2007

                        Reference Number: 2007-20-136


  The Treasury Inspector General for Tax Administration (TIGTA) has designated
 this audit report as Sensitive But Unclassified pursuant to Chapter III, Section 23
        of the Treasury Security Manual (TD P 71-15) entitled, “Sensitive But
      Unclassified Information.” Because this document has been designated
  Sensitive But Unclassified, it may be made available only to those officials that
       have a need to know the information contained within this report in the
     performance of their official duties. This report must be safeguarded and
  protected from unauthorized disclosure; therefore, all requests for disclosure of
      this report must be referred to the Disclosure Branch within the Treasury
          Inspector General for Tax Administration Office of Chief Counsel.




                           Sensitive But Unclassified

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
